May 17, 2000

JOHN A. RAPP
VICE PRESIDENT, DELIVERY

SUBJECT:	 Audit of the United States Postal Service Warranty Repair of Tractors
          (Report Number CA-AR-00-001)

This report presents the results of the audit of the United States Postal Service warranty
repair of tractors (Project Number 99RA010CA000). The audit was a self initiated
review that was included in our fiscal year (FY) 2000 audit workload plan. We engaged
the accounting firm of Grant Thornton LLP to conduct the audit.

As a result of the audit, we concluded that the program for acquiring tractors ensured
that vehicle warranty provisions were comparable to those offered by other
manufacturers. However, the audit disclosed that the Postal Service had not been
reimbursed between $977,598 and $1,879,104 in costs incurred for warranty repair
work performed by Vehicle Maintenance Facilities on tractors. Unless Postal Service
management implements a system to obtain reimbursements, the Postal Service may
continue to incur unreimbursed warranty repair costs of about $400,000 over the next
two years. Also, the audit identified an issue related to truck specifications that may
warrant further review by Postal Service management. Management agreed with our
recommendations and has initiatives in process, completed or planned addressing the
issues in this report. Management's corrective actions will be implemented by the end
of FY 2001. Management’s comments and our evaluation of these comments are
attached to the report.

We appreciate the cooperation and courtesies proved by your staff during the review. If
you have any questions, please contact Kim H. Stroud, director, Contracts Review
Team, or me at (703) 248-2300.



Sylvia L. Owens
Assistant Inspector General
 for Business Protection

Attachment
cc: Keith Strange
    Mike Spates
    John R. Gunnels
                                            Table of Contents



Executive Summary ............................................................................................. 1 


Introduction .......................................................................................................... 3 

  Background: ...................................................................................................... 3 

  Objectives, Scope, and Methodology: ............................................................... 3 


Audit Results ........................................................................................................ 5 

 Adequate Contract Warranty Terms.................................................................. 5 


  Unreimbursed Warranty Expenses Incurred ..................................................... 5 

  Recommendations ............................................................................................ 7 

  Management's Comments ................................................................................ 7 

  Evaluation of Management Comments ............................................................. 7 


  Observation: Truck Specifications..................................................................... 7 


Appendix A: Statistical Methodology .................................................................... 9 


Appendix B: Management Comments................................................................ 10 





Grant Thornton LLP
                            Executive Summary
At the request of the United States Postal Service (Postal Service), Office of
Inspector General, Grant Thornton LLP completed an audit of the implementation
of policies, procedures, and controls over warranty repair of Postal Service
tractors. The audit focused on tractors purchased under three contracts with a
major truck manufacturer and received during the period July 1, 1996, to
November 30, 1999. The audit was a self initiated review that was included in the
Office of Inspector General fiscal year 2000 audit workload plan.

As a result of the audit, we concluded that the program for acquiring the tractors
ensured that vehicle warranty provisions were comparable to those offered by
other manufacturers. However, the audit disclosed the Postal Service had not
been reimbursed between $977,598 and $1,879,104 in warranty repair work
performed by Vehicle Maintenance Facilities on tractors, as allowed by the three
tractor contracts. Postal Service officials stated that this occurred because a
Postal Service-wide claims processing system had not been implemented due to
design problems with the Vehicle Maintenance Accounting System, coupled with
Year 2000 computer implementation issues. Unless a reimbursement system is
established with the contractor, the Postal Service may continue to incur
unreimbursed costs - calculated at $400,000 over the next two years.

During the audit, Postal Service officials advised us of an issue that may warrant
further review. More specifically, 19 of 27 Vehicle Maintenance Facility
managers provided testimonial evidence that certain manufacturer options
specified by the Postal Service may have contributed to delays in obtaining
tractor parts, increased operating costs and tractor down time.

We recommend that the Vice President, Delivery:

       1. Implement a warranty repair cost reimbursement process with the
          contractor to ensure that the Postal Service does not incur additional
          unreimbursed warranty repair costs.

We recommend that the Vice President, Delivery coordinate with the Vice
President, Purchasing and Materials to:

       2. Recover any unreimbursed warranty repair costs from the contractor.

The Vice President, Delivery agreed with the recommendations contained in this
report. Management stated their intention is to deploy the new system in early
fiscal year 2001. In the interim, management will provide a non-electronic




Grant Thornton LLP                                                                 1
method to the field to collect on past claims not yet processed. We summarized
management’s response in the report and included the full text of the response in
Appendix B.

Management’s planned actions are responsive and address the issues identified
in the report.




Grant Thornton LLP                                                             2
                                 Introduction 

Background:

The Postal Service has over 300 processing plants where mail is sorted and
shipped by air or transported by ground. The Postal Service currently has a fleet
of approximately 200,000 vehicles, whose purpose is to pick up, transport, and
deliver mail. Of this fleet, tractors play an integral role in meeting scheduled
delivery times and improving the efficiency of transportation.

The Postal Service solicited bids to purchase 932 1996-model year tractors and
416 1998-model year tractors. In response to the solicitations, the Postal Service
awarded three contracts to one manufacturer to produce and deliver 1,233
tractors to predetermined Vehicle Maintenance Facilities. Repairs and
maintenance were performed at both manufacturer dealers and Vehicle
Maintenance Facilities. Postal management officials informed us at an exit
conference that the manufacturer has reimbursed its dealers $2.4 million for
warranty repair work performed at dealer facilities.

Objectives, Scope, and Methodology:

The audit was performed to review the implementation of policies, procedures,
and internal controls over warranty repair of tractors in the Postal Service.

Specifically, we performed the audit to determine whether:

   •	 The program for acquiring tractors ensured the acquisition of vehicles with
      warranty provisions comparable to those offered by other truck
      manufacturers.

   •	 Policies and procedures ensured that the Postal Service was reimbursed
      for repair work under warranty.

   •	 Policies and procedures for acquiring and operating tractors ensured
      timely warranty repairs.

To conduct the audit, we reviewed Postal Service contracting policies and
procedures, reviewed the three truck manufacturing contracts and Postal Service
procurement records, as well as conducted interviews with Postal Service
contracting and purchasing personnel. In evaluating the adequacy of Postal
Service contract terms, we conducted interviews with truck manufacturers,
Vehicle Maintenance Facility managers, and maintenance supervisors.




Grant Thornton LLP                                                              3
Furthermore, we reviewed vehicle maintenance records at statistically selected
Vehicle Maintenance Facilities to document costs associated with completing
warranty repairs and the time spent to repair tractors. Finally, we obtained
testimonial evidence from Vehicle Maintenance Facility personnel on an
observation regarding tractor performance and parts delays.

The audit was conducted from July 1999, through May 2000, in accordance with
generally accepted government auditing standards. Tests of internal controls,
deemed necessary to support findings, were conducted.




Grant Thornton LLP                                                               4
                                Audit Results

Adequate Contract Warranty Terms

The audit disclosed that the program for acquiring tractors ensured that vehicle
warranty provisions were comparable to those offered by other comparable truck
manufacturers. Specifically, the Postal Service required that there be warranty
coverage for a period of not less than three years from the date of acceptance or
150,000 miles, whichever occurs first. We assessed the reasonableness of the
warranty from the tractor manufacturer by comparing it to warranties of its
competitors. The information obtained included duration of coverage, component
coverage, and policies and procedures for obtaining warranty repairs.

Unreimbursed Warranty Expenses Incurred


We concluded that while the tractor warranty was comparable to its competitors,
we found an issue related to reimbursement of warranty repair costs. The audit
disclosed that those warranty repair expenses have not been reimbursed to the
Postal Service. Specifically, all three of the tractor manufacturing contracts
required an electronic claims processing system for reimbursable warranty
repairs performed at Vehicle Maintenance Facilities. The contracts included the
following language: “Claims submittal will be performed through an electronic
data transfer from the (Vehicle Maintenance Facilities) to the contractor and/or
the contractor’s first tier subcontractors . . . All software and any necessary
hardware must be compatible with USPS equipment.” However, 24 of the 27
Vehicle Maintenance Facilities we visited had not received the claim processing
software. The three Vehicle Maintenance Facilities that had received the claims
processing software from the contractor were not using the software because it
was incompatible with Postal Service computer systems. In addition, in 1996
Postal Service headquarters management instructed Vehicle Maintenance
Facilities not to seek reimbursement of claims until the automated process was in
place. Postal Service management expected redesigns to the Vehicle
Maintenance Accounting System but postponements due to Year 2000
remediation issues delayed implementing the electronic claims reimbursement
system.

Postal Service attempts at implementing the claim processing software were not
successful and neither the Postal Service nor the tractor manufacturer had taken
further action to resolve this issue. According to Postal Service management,
impediments to implementing the warranty process included: corporate Year




Grant Thornton LLP                                                             5
2000 computer compliance activity and newly implemented software quality
control measures. In addition; they stated that information systems had to exert
total control over all internal systems controls and changes; and the Vehicle
Management Accounting System was and remains incapable of providing the
level of support necessary to successfully submit electronic warranty claims.

To estimate the impact of the lack of a claims processing system for the tractors,
we first determined that 108 Vehicle Maintenance Facilities, as of August 30,
1999, received the 1,233 tractors under three contracts issued in 1996 and 1998.
Using statistical sampling techniques, we identified, visited, and reviewed records
at 27 Vehicle Maintenance Facilities responsible for maintaining 669 of the
tractors. Following is a map of the United States showing the Vehicle
Maintenance Facilities we visited.



                                                                                    Denotes VMF
                                                                                 location visited




We applied statistical sampling techniques to repair and cost data covering the
period July 1, 1996, to November 30, 1999, to estimate unreimbursed warranty
repairs costs at Postal Service Vehicle Maintenance Facilities. More specifically,
we reviewed over 3800 records and identified unreimbursed warranty-related
repair costs for parts and labor. Labor costs were calculated using the Postal
Service labor rate and repair time as indicated on repair work orders. Based on
the sample, we projected that the absence of a claim processing system for work
performed at Vehicle Maintenance Facilities resulted in the Postal Service
incurring between $977,598 and $1,879,1041 in unreimbursed warranty repair
costs, including parts and labor costs on 1996 and 1999 tractors. Unless an
operating reimbursement system is established with the contractor, the Postal
Service may incur an estimated $400,000 in unreimbursed costs for warranty
repairs2 over the next two years -- the remaining warranty on the tractors.
1
 See Statistical Appendix
2
 This is calculated from the ratio between the remaining tractors under warranty and the tractors
associated with the lower bound. This is probably conservative because labor rates have risen
markedly from those used in the projection.




Grant Thornton LLP                                                                                  6
       Recommendations

       The Vice President, Delivery should:

           1. Implement a warranty repair cost reimbursement process with the
              contractor to ensure that the Postal Service does not incur
              additional unreimbursed warranty repair costs.

       The Vice President, Delivery should coordinate with the Vice President,
       Purchasing and Materials to:

           2. Recover any unreimbursed warranty repair costs from the
              contractor.

       Management’s Comments

       The Vice President, Delivery agreed with the recommendations.
       Management stated their intention is to deploy the new system in early
       fiscal year 2001. In the interim, management will provide a non-electronic
       method to the field to collect on past claims not yet processed.


       Evaluation of Management Comments

       Management’s comments are responsive to our recommendations.


Observation: Truck Specifications


During the audit, the Vehicle Maintenance Facility managers provided testimonial
evidence regarding optional specifications on tractors, which may warrant further
review by Postal Service management. Specifically, managers at 19 of the 27
Vehicle Maintenance Facility managers we visited raised an issue that certain
tractor components have resulted in problems, including delays in obtaining
tractor parts and the inability of the contractor’s dealers to repair tractors. It was
the perception of the Vehicle Maintenance Facility managers that the delays due
to optional specifications for tractors have contributed to increased operating
costs and extended tractor down time. Vehicle Maintenance Facility Managers
provided examples of optional specifications, such as: the air starter system and
trailer skid plate.




Grant Thornton LLP                                                                  7
The managers provided examples of increased operating costs such as,
expenses to maintain idle tractors and leasing costs to replace out of service
tractors. In this regard, the managers asserted that the Postal Service incurred
additional costs associated with priority shipping of parts. Vehicle Maintenance
Facility Officials did not provide written support for this issue, and did not
document waiting periods for backordered part or costs associated with tractor
down times.

Postal Service Vehicle Maintenance Facility managers advised us that
specifications for the tractors were determined by the Postal Service Operations
organization. Postal Service Operations officials stated that they requested
certain vehicle options based on operating experiences and tractor operating
requirements described in the contract. According to management, the
equipment options are consistent with those offered by the majority of vehicle
and component manufacturers in the industry, including the Postal Service truck
manufacturer.

Because our support is primarily testimonial evidence, we are only presenting
this issue an observation for Postal Service management to consider whether to
review it further.




Grant Thornton LLP                                                                 8
                     Appendix A: Statistical Methodology
A statistical sample was taken to demonstrate and quantify the magnitude of
forgone warranty repair reimbursements and obtain testimonial documentation
from Postal Service Vehicle Maintenance personnel regarding the performance
surrounding the Mack Truck contract. Vehicle Maintenance Facilities were
statistically selected using a probability proportion to size (PPS) methodology,
where the measure of size was the total number of trucks delivered as of August
30, 1999. To do the analysis we used standard formulas for PPS found in,
Sampling Techniques by William G. Cochran, 3rd Edition; Wiley Publishing Co.,
1973, to achieve the projection and margin for error. We project an unbiased
point estimate of $1,428,351 in unreimbursed warranty repair costs. We also
report a precision of plus or minus $450,753 at a 95 percent confidence level,
resulting in a range of $977,598 to $1,879,104 of unreimbursed warranty repair
costs.




Grant Thornton LLP                                                             9
                     Appendix B: Management’s Comments 





Grant Thornton LLP                                         10
Grant Thornton LLP   11
